Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



MOST OF NEW JERSEY’S CLAIMS
 FOR MEDICAID SUPPORTED
  EMPLOYMENT SERVICES
   WERE UNALLOWABLE




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      December 2013
                                                      A-02-12-01009
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 New Jersey claimed at least $6.9 million in Federal Medicaid reimbursement for supported
 employment services that were unallowable.


WHY WE DID THIS REVIEW

During a statewide review of New Jersey’s community care waiver (CCW) program, we
identified a significant number of supported employment services – vocational services for
individuals with developmental disabilities – that were improperly submitted for Federal
Medicaid reimbursement. On the basis of these results, we decided to audit all of these services.

Our objective was to determine whether the New Jersey Department of Human Services’ (State
agency) claims for Medicaid reimbursement for supported employment services complied with
certain Federal and State requirements.

BACKGROUND

Supported employment services are ongoing support services and other appropriate services
needed to support and maintain individuals with developmental disabilities for whom
competitive employment at or above the minimum wage is unlikely and who, because of their
disabilities, need intensive ongoing support to perform in a work setting. Services are provided
in a variety of settings, particularly worksites where people without disabilities are employed,
and include activities needed to sustain paid work (e.g., supervision and training by qualified job
coaches).

In New Jersey, supported employment services are provided only under the CCW program. The
State agency is required to provide for initial evaluations and annual reevaluations of
beneficiaries’ level-of-care needs. Further, Federal regulations require that services be furnished
under a written plan of care (care plan) approved by a qualified specialist. In addition, providers
must maintain complete and accurate records to support services billed.

The State agency’s Division of Developmental Disabilities (division) administers the CCW
program. The State agency’s Division of Medical Assistance and Health Services is responsible
for overseeing the CCW program.

HOW WE CONDUCTED THIS REVIEW

For the period January 1, 2008, through November 30, 2011, we limited our review to Medicaid
costs claimed for supported employment services. From a total of approximately $17 million
($8.6 million Federal share) that the State agency claimed, we reviewed a random sample of 139
beneficiary-months. A beneficiary-month includes all supported employment services for a
beneficiary for 1 month.




Supported Employment Services in New Jersey (A-02-12-01009)                                           i
WHAT WE FOUND

Most of the State agency’s claims for Federal Medicaid reimbursement for supported
employment services did not comply with certain Federal and State requirements. Specifically,
the State agency claimed Medicaid reimbursement for unallowable supported employment
services during 137 of the 139 beneficiary-months in our random sample. The State agency
properly claimed Medicaid reimbursement for all supported employment services during the
remaining 2 beneficiary-months.

The claims for unallowable services were made because (1) the division and most providers did
not ensure that supported employment services were documented, (2) the division did not ensure
that services claimed were properly billed as supported employment services, (3) the division did
not ensure that supported employment services were provided only to beneficiaries with
completed and approved care plans, (4) the division did not ensure or document that some job
coaches were qualified to provide supported employment services to beneficiaries, and (5) the
division did not ensure and document that all beneficiaries were assessed and certified to require
the appropriate level of care. On the basis of our sample results, we estimated that the State
agency improperly claimed at least $6,919,856 in Federal Medicaid reimbursement for
unallowable supported employment services.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $6,919,856 to the Federal Government and

    •   ensure that it complies with certain Federal and State requirements by requiring the
        division and/or providers to:

        o claim reimbursement only for documented supported employment services,

        o provide supported employment services only to beneficiaries for whom there is a
          completed and approved care plan,

        o ensure and document that all job coaches meet division qualifications, and

        o ensure and document that all beneficiaries approved for supported employment
          services have been assessed and certified to need the required level of care.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially concurred with our first
recommendation (financial disallowance) and described actions that it had taken or planned to
take to address the remaining findings and recommendation. Under separate cover, the State
agency provided additional documentation to support services for certain sampled beneficiary-
months. The State agency indicated that it plans to establish new monitoring requirements for


Supported Employment Services in New Jersey (A-02-12-01009)                                      ii
approved providers and a fee-for-service system to prevent improper billing of services. In
addition, the State agency plans to retain an independent auditing firm to review service
providers’ claims and strengthen oversight of the program.

After reviewing the State agency’s comments and the additional documentation, we have revised
our findings for 18 beneficiary-months and modified our statistical estimates accordingly. We
have revised the report to reflect these changes; however, the revisions did not affect the total
number of unallowable beneficiary-months because these beneficiary-months remain
unallowable for other reasons.




Supported Employment Services in New Jersey (A-02-12-01009)                                    iii
                                                     TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................1

           Why We Did This Review ............................................................................................1

           Objective .......................................................................................................................1

           Background ...................................................................................................................1
                 The Medicaid Program .....................................................................................1
                 Home and Community-Based Services Waivers Under the
                   Medicaid Program ..........................................................................................1
                 Supported Employment Services in New Jersey ..............................................2

           How We Conducted This Review.................................................................................2

FINDINGS ................................................................................................................................3

           Services Not Documented.............................................................................................3

           Services Claimed Were Not Supported Employment Services ....................................4

           Services Not Provided in Accordance With Care Plan .................................................4

           Job Coach Qualifications Not Documented or Not Met ...............................................5

           Level-of-Care Assessment Not Documented................................................................6

           Conclusion .................................................................................................................... 6

RECOMMENDATIONS ..........................................................................................................7

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................7




Supported Employment Services in New Jersey (A-02-12-01009)                                                                                     iv
APPENDIXES

        A: Related Office of Inspector General Reports .......................................................... 8

        B: Federal and State Requirements for Supported Employment Services ................. 9

        C: Audit Scope and Methodology................................................................................ 11

        D: Statistical Sampling Methodology .......................................................................... 14

        E: Sample Results and Estimates ................................................................................ 16

        F: Summary of Deficiencies for Each Sampled Beneficiary-Month .......................... 16

        G: State Agency Comments ......................................................................................... 22




Supported Employment Services in New Jersey (A-02-12-01009)                                                                     v
                                            INTRODUCTION

WHY WE DID THIS REVIEW

During a statewide review of New Jersey’s community care waiver (CCW) program, 1 we
identified a significant number of supported employment services – vocational services for
individuals with developmental disabilities – improperly submitted for Federal Medicaid
reimbursement. On the basis of these results, we decided to audit all of these services.
Appendix A contains details on our reports related to New Jersey’s CCW program.

OBJECTIVE

Our objective was to determine whether the New Jersey Department of Human Services’ (State
agency) claims for Medicaid reimbursement for supported employment services complied with
certain Federal and State requirements.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with Federal requirements.

Home and Community-Based Services Waivers Under the Medicaid Program

Section 1915(c) of the Social Security Act (the Act) authorizes Medicaid home and community-
based services (HCBS) waiver programs. 2 HCBS may be provided only to beneficiaries who a
State agency determines would, in the absence of such services, require the Medicaid-covered
level of care provided in a hospital, nursing facility, or intermediate care facility for persons with
intellectual disabilities. 3

To be eligible for Federal Medicaid reimbursement, HCBS must be furnished under a written
plan of care (care plan) and, on at least an annual basis, beneficiaries receiving HCBS must be
reevaluated. To be eligible for HCBS, a beneficiary’s care plan must include an assessment of

1
 Review of Medicaid Payments for Services Provided Under New Jersey’s Section 1915(c) Community Care Waiver
From January 1, 2005, Through December 31, 2007 (A-02-10-01029).
2
 A State’s HCBS waiver program must be approved by CMS and allows a State to claim Federal reimbursement for
services not usually covered by Medicaid. HCBS are generally provided to Medicaid-eligible beneficiaries in the
community rather than in an institutional setting.
3
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021 & 29028 (May 16, 2012).

Supported Employment Services in New Jersey (A-02-12-01009)                                                   1
the services needed to prevent the beneficiary from requiring institutionalization. The
assessment must be approved by a qualified specialist. 4 The plan includes an approval section
for the qualified specialist to certify that they have reviewed the plan and determined that the
beneficiary continues to have functional limitations and requires active treatment and services at
the required level of care for a specific period. The care plan must specify the medical and other
services to be provided and their frequency.

Supported Employment Services in New Jersey

The State agency’s Division of Developmental Disabilities (division) administers the CCW
program, which covers supported employment services and other HCBS, and is responsible for
the implementation and operation of the program. 5

The State’s waiver agreement with CMS defines supported employment services as ongoing
support services and other appropriate services needed to support and maintain individuals with
developmental disabilities for whom competitive employment at or above the minimum wage is
unlikely, and who, because of their disabilities, need intensive ongoing support to perform in a
work setting. Services are provided in a variety of settings, particularly worksites where people
without disabilities are employed (e.g., supermarkets), and include activities needed to sustain
paid work (e.g., supervision and training by qualified job coaches). Frequently, beneficiaries
receiving supported employment services also receive day habilitation services intended to help
individuals transition into community living, work, and employment.

For details on Federal and State requirements related to supported employment services, see
Appendix B.

HOW WE CONDUCTED THIS REVIEW

For the period January 1, 2008, through November 30, 2011, we limited our review to Medicaid
costs claimed for supported employment services. 6 During this period, the State agency claimed
$17,127,132 ($8,574,633 Federal share) for supported employment services provided during
12,643 beneficiary-months. 7 From the sampling frame of 12,643 beneficiary-months, we
reviewed a stratified random sample of 139 beneficiary-months.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

4
 As a result of the changes in terminology based on Rosa’s Law (see footnote 3), we have replaced the official title
“qualified mental retardation professional” with “qualified specialist” throughout the report.
5
  The State agency’s Division of Medical Assistance and Health Services has final responsibility for the oversight of
the program.
6
 Specifically, our review covered the State agency’s claims for Medicaid reimbursement for supported employment
services performed from January 1, 2008, through November 30, 2011, for which it made payments to providers
between August 1, 2008, and December 31, 2011.
7
    A beneficiary-month includes all supported employment services for a beneficiary for 1 month.

Supported Employment Services in New Jersey (A-02-12-01009)                                                            2
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix C contains the details of our audit scope and methodology, Appendix D contains our
statistical sampling methodology, and Appendix E contains our sample results and estimates.

                                                  FINDINGS

Most of the State agency’s claims for Federal Medicaid reimbursement for supported
employment services did not comply with certain Federal and State requirements. Specifically,
the State agency claimed Medicaid reimbursement for unallowable supported employment
services during 137 of the 139 beneficiary-months in our random sample. The State agency
properly claimed Medicaid reimbursement for all supported employment services during the
remaining 2 beneficiary-months.

Of the 137 beneficiary-months with supported employment services for which the State agency
improperly claimed Federal Medicaid reimbursement, 110 contained more than 1 deficiency.
Appendix F contains a summary of deficiencies, if any, identified for each sampled beneficiary-
month.

The claims for unallowable services were made because (1) the division and most providers did
not ensure that supported employment services were documented, (2) the division did not ensure
that services claimed were properly billed as supported employment services, (3) the division did
not ensure that supported employment services were provided only to beneficiaries with
completed and approved care plans, (4) the division did not ensure or document that some job
coaches were qualified to provide supported employment services to beneficiaries, and (5) the
division did not ensure and document that all beneficiaries were assessed and certified to require
the appropriate level of care. On the basis of our sample results, we estimated that the State
agency improperly claimed at least $6,919,856 in Federal Medicaid reimbursement for
unallowable supported employment services.

SERVICES NOT DOCUMENTED

States must have agreements with Medicaid providers under which providers agree to keep such
records as are necessary to fully disclose the extent of the services provided to individuals
receiving assistance under a State plan (§ 1902(a)(27) of the Act). In addition, States are
required to maintain documentation of services provided (2 CFR § 225, App. A § C.1.j.). 8



8
  New Jersey’s waiver agreement with CMS identifies the division’s Standards for Supported Employment Services
Manual as an additional standard for providers performing supported employment services. The Standards for
Supported Employment Services Manual states that providers must document each specific service provided to, or
on behalf of, the individual on an intervention plan and service log. In addition, the supported employment service
provider must prepare a supported employment monthly data report which accurately reflects the services provided
to individuals. Billable hours must be documented on the intervention plan and service log form and reflected on
the supported employment monthly data report.

Supported Employment Services in New Jersey (A-02-12-01009)                                                           3
During 93 beneficiary-months, the State agency claimed reimbursement for some supported
employment services that were not adequately documented. Specifically, providers did not
maintain any service notes to support the services billed in 35 of 93 beneficiary-months. Service
notes for the remaining services did not adequately describe the service or did not match the
service billed. For example, for 1 day of service, the service note indicated 2 hours of service,
but the provider claimed 4 hours of service.

SERVICES CLAIMED WERE NOT SUPPORTED EMPLOYMENT SERVICES

States must have agreements with Medicaid providers under which the providers agree to
maintain records of Medicaid services provided (§ 1902(a)(27) of the Act). Federal cost
principles also require States to document services provided.

During 67 beneficiary-months, the State agency claimed reimbursement for some supported
employment services that were not provided. Specifically:

       •   During 65 beneficiary-months, providers billed for supported employment services
           although their records indicated that the beneficiary received day habilitation services
           during the period for which the supported employment services were billed.

       •   During 2 beneficiary-months, providers billed for supported employment services even
           though they did not offer these services. 9

To determine our recommended disallowance, we adjusted these 67 beneficiary-months to reflect
allowable day habilitation services provided and recalculated the associated claims at the
applicable (lower) reimbursement rate.

SERVICES NOT PROVIDED IN ACCORDANCE WITH CARE PLAN

A care plan must be approved by the State agency 10 and specify the services to be provided and
their frequency. Federal regulations require HCBS to be furnished under a care plan subject to
approval by the State agency (42 CFR § 441.301(b)(1)(i)). In addition, New Jersey’s waiver
agreement with CMS states that all waiver services will be furnished pursuant to a care plan, and
Federal financial participation will not be claimed for waiver services that are not included in the
care plan.

During 64 beneficiary-months, the State agency claimed reimbursement for supported
employment services that were not provided in accordance with the beneficiary’s care plan. 11


9
 Provider officials indicated that they miscoded day habilitation services as supported employment services. We
determined that the providers were not licensed by the State agency to perform supported employment services.
10
     Section 4442.6 of CMS’s State Medicaid Manual.
11
  The total exceeds 64 because, during 6 beneficiary-months, the State agency claimed reimbursement for services
for which the services were not included in the care plan, and the care plan was incomplete.


Supported Employment Services in New Jersey (A-02-12-01009)                                                        4
Specifically:

       •   Services not included in care plans. During 39 beneficiary-months, providers claimed
           reimbursement for supported employment services not specified in beneficiaries’ care
           plans.

       •   Care plans missing or incomplete. During 21 beneficiary-months, providers claimed
           reimbursement for supported employment services provided to beneficiaries whose care
           plans were missing or incomplete (i.e., missing relevant sections).

       •   Care plans not approved. During 10 beneficiary-months, providers claimed
           reimbursement for supported employment services for beneficiaries whose care plans
           were not approved by the State agency.

JOB COACH QUALIFICATIONS NOT DOCUMENTED OR NOT MET

The State’s waiver agreement with CMS identifies the division’s standards for providers
performing supported employment services. Job coaches providing supported employment
services must have at least an associate of arts degree in a related field from an accredited
college or have a high school diploma with 3 years of related job experience. Job coaches must
also complete the division’s training requirements and document this in their personnel file. 12

During 39 beneficiary-months, the State agency claimed reimbursement for some supported
employment services for which the qualifications of the beneficiary’s job coach were not
documented or were not met. 13 Specifically:

       •   Education or job experience qualifications not documented. During 7 beneficiary-
           months, the State agency claimed reimbursement for supported employment services
           provided by service providers who were unable to document that beneficiaries’ job
           coaches met the division’s education or job experience requirements.

       •   Training not documented. During 21 beneficiary-months, the State agency claimed
           reimbursement for supported employment services provided by service providers who
           were unable to document that beneficiaries’ job coaches completed the division’s training
           requirements.

       •   Education or job experience qualifications not met. During 17 beneficiary-months,
           the State agency claimed reimbursement for supported employment services provided by


12
     These requirements are detailed in the division’s Standards for Supported Employment Services Manual.
13
  The total exceeds 39 because some job coaches failed to meet both education/job experience and training
requirements. Also, in some cases, multiple unqualified job coaches worked with a beneficiary during the same
month.

Supported Employment Services in New Jersey (A-02-12-01009)                                                     5
         service providers whose job coaches did not meet the division’s education or job
         experience qualifications.

     •   Training not completed. During 2 beneficiary-months, the State agency claimed
         reimbursement for supported employment services provided by service providers whose
         job coaches had not completed the division’s training requirements.

LEVEL-OF-CARE ASSESSMENT NOT DOCUMENTED

To be eligible for HCBS, which include supported employment services, a beneficiary’s care
plan must include a level-of-care assessment approved by a qualified specialist that includes the
services needed to prevent the beneficiary from requiring institutionalization. 14 Each beneficiary
receiving HCBS must also have periodic reevaluations, at least annually, to determine whether
the beneficiary continues to need the level of care provided (42 CFR § 441.302(c)).

During 31 beneficiary-months, the State agency claimed reimbursement for supported
employment services provided to beneficiaries whose level-of-care assessment was not approved
by a qualified specialist. Specifically:

     •   Level-of-care assessment not approved by a qualified specialist. During 16
         beneficiary-months, the State agency claimed reimbursement for supported employment
         services provided to beneficiaries for whom the level-of-care assessment was not
         approved by a qualified specialist. Specifically, the signature page used on the State
         agency’s assessment form was missing.

     •   Blank level-of-care assessment. During 15 beneficiary-months, the State agency
         claimed reimbursement for supported employment services provided to beneficiaries
         whose level-of-care assessments were blank.

CONCLUSION

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $6,919,856 in Federal Medicaid reimbursement for supported employment services that did
not comply with certain Federal and State requirements. Specifically, (1) the division and most
providers did not ensure that supported employment services were documented, (2) the division
did not ensure that services claimed were properly billed as supported employment services,
(3) the division did not ensure that supported employment services were provided only to
beneficiaries with completed and approved care plans, (4) the division did not ensure or
document that some job coaches were qualified to provide supported employment services to
beneficiaries, and (5) the division did not ensure and document that all beneficiaries were
assessed and certified to require the appropriate level of care.



14
  Section 1915(c) of the Act, 42 CFR § 441.301(b)(1)(iii), the waiver agreement with CMS, and the division’s
Standards for Supported Employment Services Manual.


Supported Employment Services in New Jersey (A-02-12-01009)                                                    6
                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $6,919,856 to the Federal Government and

    •   ensure that it complies with certain Federal and State requirements by requiring the
        division and/or providers to:

        o claim reimbursement only for documented supported employment services,

        o provide supported employment services only to beneficiaries for whom there is a
          completed and approved care plan,

        o ensure and document that all job coaches meet division qualifications, and

        o ensure and document that all beneficiaries approved for supported employment
          services have been assessed and certified to need the required level of care.

                            STATE AGENCY COMMENTS
                   AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially concurred with our first
recommendation (financial disallowance) and described actions that it had taken or planned to
take to address the remaining findings and recommendation. Under separate cover, the State
agency provided additional documentation to support services for certain sampled beneficiary-
months. The State agency indicated that it plans to establish new monitoring requirements for
approved providers and a fee-for-service system to prevent improper billing of services. In
addition, the State agency plans to retain an independent auditing firm to review service
providers’ claims to strengthen oversight of the program.

After reviewing the State agency’s comments and the additional documentation, we have revised
our findings for 18 beneficiary-months and modified our statistical estimates accordingly. We
have revised the report to reflect these changes; however, the revisions did not affect the total
number of unallowable beneficiary-months because these beneficiary-months remain
unallowable for other reasons. The State agency’s comments appear as Appendix G.




Supported Employment Services in New Jersey (A-02-12-01009)                                     7
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

REVIEWS OF NEW JERSEY’S COMMUNITY CARE WAIVER PROGRAM

                   Report Title                               Report Number   Date Issued
Review of Medicaid Payments for Services Provided             A-02-09-01033    7/27/11
Under New Jersey’s Section 1915(c) Community
Care Waiver by Elwyn New Jersey From January 1,
2005, Through December 31, 2007
Review of Medicaid Payments for Services Provided             A-02-09-01034     3/22/12
Under New Jersey’s Section 1915(c) Community
Care Waiver by Bancroft NeuroHealth From
January 1, 2005, Through December 31, 2007
Review of Medicaid Payments for Services Provided             A-02-10-10129     4/20/12
Under New Jersey’s Section 1915(c) Community
Care Waiver From January 1, 2005, Through
December 31, 2007




Supported Employment Services in New Jersey (A-02-12-01009)                                 8
              APPENDIX B: FEDERAL AND STATE REQUIREMENTS FOR
                     SUPPORTED EMPLOYMENT SERVICES

FEDERAL REQUIREMENTS FOR ELIGIBILITY FOR
SUPPORTED EMPLOYMENT SERVICES

Section 1915(c) of the Act authorizes Medicaid HCBS waiver programs. A State’s HCBS
waiver program must be approved by CMS and allows a State to claim Federal reimbursement
for services not usually covered by Medicaid. HCBS are generally provided to Medicaid-eligible
beneficiaries in the community rather than in an institutional setting.

Section 1915(c) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS may be provided only to beneficiaries who have been determined would, in the absence of
such services, require the Medicaid-covered level of care provided in a hospital, nursing facility,
or intermediate care facility for persons with intellectual disabilities. In addition, Federal
regulations (42 CFR § 441.302(c)) require a State agency to provide for an initial evaluation of
the beneficiary’s need for the level of care that would be provided in an institution unless the
individual receives HCBS. The regulations further require at least annual reevaluations of each
beneficiary receiving HCBS.

Section 4442.6 of CMS’s State Medicaid Manual requires an assessment of the individual to
determine the services needed to prevent institutionalization that must be included in the care
plan. In addition, the care plan must specify the medical and other services to be provided, their
frequency, and the type of provider. No Federal financial participation is available under a
§ 1915(c) waiver for HCBS furnished without a written care plan.

FEDERAL REQUIREMENTS FOR DOCUMENTATION NEEDED TO SUPPORT
SUPPORTED EMPLOYMENT SERVICES BILLED

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. The Office of Management and Budget Circular A-87, Cost Principles for State, Local,
and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), requires States to
maintain documentation of services provided.

Federal financial participation is available only for allowable actual expenditures made on behalf
of eligible beneficiaries for covered services rendered by certified providers (§ 2497.1 of CMS’s
State Medicaid Manual). Expenditures are allowable only to the extent that, when a claim is
filed, the provider has adequate supporting documentation in readily reviewable form to ensure
that all applicable Federal requirements have been met.




Supported Employment Services in New Jersey (A-02-12-01009)                                          9
FEDERAL AND STATE REQUIREMENTS FOR SUPPORTED EMPLOYMENT
SERVICES BEING PROVIDED IN ACCORDANCE WITH AN APPROVED
PLAN OF CARE

HCBS, by Federal regulation, must be furnished under a written plan of care subject to approval
by the State agency (42 CFR § 441.301(b)(1)(i)). In addition, New Jersey’s waiver agreement
with CMS states that all waiver services will be furnished pursuant to a written plan of care, and
Federal financial participation will not be claimed for waiver services that are not included in the
individual written plan of care.

A care plan must specify the services to be provided, their frequency, and the type of provider
(section 4442.6 of CMS’s State Medicaid Manual).

FEDERAL AND STATE REQUIREMENTS FOR INDIVIDUALS TO ASSESS
BENEFICIARIES RECEIVING SUPPORTED EMPLOYMENT SERVICES

Section 4442.5 of CMS’s State Medicaid Manual requires waiver agreements to include an
assurance by the State agency that it will provide for an evaluation and periodic reevaluations of
the need for the level of care provided in an institution but for the availability of HCBS,
including a description of the party or parties responsible for the evaluation and reevaluation and
their qualifications.

New Jersey’s waiver agreement with CMS states that to be eligible to receive supported
employment services under the waiver program, a beneficiary must be assessed to need an
Intermediate Care Facilities for Individuals With Intellectual Disabilities level of care by
qualified specialists. The qualified specialists must perform these evaluations at least every
12 months.

New Jersey’s waiver agreement with CMS identifies the division’s Standards for Supported
Employment Services Manual as an additional standard for providers performing supported
employment services. The Standards for Supported Employment Services Manual states that job
coaches providing supported employment services must be at least 18 years of age and, at a
minimum, have an associate of arts degree in a related field from an accredited college or have a
high school diploma with 3 years of related job experience. In addition, each job coach must
successfully complete the division’s “Pre-Service Training” and maintain documentation of
successful completion of the training in their personnel file.




Supported Employment Services in New Jersey (A-02-12-01009)                                       10
                   APPENDIX C: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered the State agency’s claims for Medicaid reimbursement for supported
employment services performed from January 1, 2008, through November 30, 2011, for which it
made payments to providers between August 1, 2008, and December 31, 2011. We limited our
audit to Medicaid costs claimed for supported employment services totaling $100 or more during
a beneficiary-month.

After taking into account these exclusions, we determined that our revised sampling frame
consisted of 12,643 beneficiary-months totaling $17,127,132 ($8,574,633 Federal share). We
reviewed a stratified random sample of 139 beneficiary-months.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for supported employment services claimed for reimbursement. We did not
assess the appropriateness of HCBS payment rates or the State agency’s overall internal control
structure. Rather, we limited our review of internal controls to those applicable to our objective.
We reviewed the providers’ and the centers’ internal controls for documenting supported
employment services billed and claimed for reimbursement.

We performed our fieldwork at 27 providers’ offices throughout New Jersey during April and
May 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State requirements;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   met with State agency officials to discuss the State agency’s administration and
        monitoring of supported employment services;

    •   interviewed providers and division officials regarding their policies and procedures for
        supported employment services;

    •   reconciled the CCW program services claimed for Federal reimbursement by the State
        agency on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program, with the population of all payments for CCW program
        services made to providers statewide obtained from New Jersey’s Medicaid Management
        Information System (MMIS) for the quarter ended June 30, 2010;




Supported Employment Services in New Jersey (A-02-12-01009)                                        11
     •   obtained from New Jersey’s MMIS a sampling frame of 26,066 beneficiary-months with
         supported employment services for which the State agency claimed reimbursement
         totaling approximately $25 million ($12.5 million Federal share) from August 1, 2008,
         through December 31, 2011;

     •   removed from our sampling frame all beneficiary-months in which supported
         employment services were performed during calendar years 2004 and 2005 but were
         submitted for payment after August 1, 2008; 15

     •   removed from our sampling frame all beneficiary-months with claims totaling less than
         $100;

     •   determined that our revised sampling frame consisted of 12,643 beneficiary-months
         totaling $17,127,132 ($8,574,633 Federal share);

     •   selected a stratified random sample of 139 beneficiary-months and, for each beneficiary-
         month:

         o determined whether the beneficiary was assessed by a qualified specialist to be
           eligible for the CCW program,

         o determined whether supported employment services were provided in accordance
           with an approved care plan,

         o determined whether individuals who provided supported employment services met
           the division’s qualification and training requirements,

         o determined whether documentation supported the supported employment services
           billed,

         o determined whether the services claimed were properly billed as supported
           employment services, and

     •   estimated the unallowable Federal Medicaid reimbursement paid in the total population
         of 12,643 beneficiary-months. 16

See Appendix D for the details of our statistical sampling methodology and Appendix E for our
sample results and estimates.




15
  These were claims that were previously voided out of New Jersey’s MMIS and adjudicated to reflect the proper
reimbursement rates.
16
  For those beneficiary-months that included both allowable and unallowable services, we included only the portion
of the Federal Medicaid reimbursement associated with the unallowable services in our estimation.

Supported Employment Services in New Jersey (A-02-12-01009)                                                      12
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Supported Employment Services in New Jersey (A-02-12-01009)                                   13
               APPENDIX D: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of beneficiary-months of services with total payments greater than or
equal to $100 (Federal share) for which the State agency received Medicaid reimbursement for
supported employment services provided during the period January 1, 2008, through
November 30, 2011, with payment dates from August 1, 2008, through December 31, 2011.
A beneficiary-month is defined as all supported employment services for one beneficiary for
1 month.

SAMPLING FRAME

The sampling frame was an Access file containing 12,643 beneficiary-months with Medicaid
payments greater than or equal to $100 (Federal share) for services totaling $17,127,132
($8,574,633 Federal share) for which the State agency received Medicaid reimbursement for
supported employment services provided during the period January 1, 2008, through
November 30, 2011, with payment dates from August 1, 2008, through December 31, 2011. The
data for these beneficiary-months of service was extracted from the New Jersey MMIS.

The sampling frame was the same as the target population.

SAMPLE UNIT

The sample unit was a beneficiary-month.

SAMPLE DESIGN

We used a stratified random sample. To accomplish this, we separated the sampling frame into
three strata, as follows:

    •   Stratum 1: beneficiary-months with total payments greater than or equal to $100 and less
        than or equal to $1,000 = 10,048 beneficiary-months totaling $5,786,074 ($2,897,742
        Federal share).

    •   Stratum 2: beneficiary-months with total payments greater than $1,000 and less than or
        equal to $3,500 = 2,556 beneficiary-months totaling $11,025,487 ($5,519,106 Federal
        share).

    •   Stratum 3: beneficiary-months with total payments greater than $3,500 = 39 beneficiary-
        months totaling $315,571 ($157,785 Federal share).




Supported Employment Services in New Jersey (A-02-12-01009)                                      14
SAMPLE SIZE

We selected a sample of 139 beneficiary-months of service, as follows:

    •   50 beneficiary-months from stratum 1,

    •   50 beneficiary-months from stratum 2, and

    •   39 beneficiary-months from stratum 3.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the first two strata. After generating 50 random
numbers for each stratum, we selected the corresponding frame items. We selected for review
all 39 beneficiary-months in stratum 3.

ESTIMATION METHODOLOGY

We used the OAS statistical software to calculate our estimates. We used the lower limit of the
90-percent confidence interval to estimate the overpayment associated with the unallowable
supported employment services in the beneficiary-months.




Supported Employment Services in New Jersey (A-02-12-01009)                                   15
                   APPENDIX E: SAMPLE RESULTS AND ESTIMATES

                                     Sample Details and Results

                                                                     No. of
                                                                   Beneficiary-    Value of
                             Value of                  Value of      Months       Unallowable
           Beneficiary-       Frame                     Sample        With         Services
Stratum     Months in        (Federal       Sample     (Federal    Unallowable     (Federal
             Frame            Share)         Size       Share)      Services        Share)
   1           10,048        $2,897,742          50      $15,873        48          $12,344
   2             2,556        5,519,106          50      118,133        50           97,141
   3                39          157,785          39      157,786        39         133,228
 Total         12,643        $8,574,633        139     $291,792        137         $242,713

                   Estimated Value of Unallowable Services (Federal Share)
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                 $7,579,788
                                 Lower limit                    6,919,856
                                 Upper limit                    8,239,720




Supported Employment Services in New Jersey (A-02-12-01009)                                     16
         APPENDIX F: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                            BENEFICIARY-MONTH

                                                  Legend
 1     Services not documented
 2     Services claimed were not supported employment services
 3     Services not provided in accordance with care plan
 4     Job coach qualifications not documented or not met
 5     Level-of-care assessment not documented

Office of Inspector General Review Determinations for the 139 Sampled Beneficiary-Months

   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency    Deficiency   Deficiency     No. of
   Month            1            2            3             4            5        Deficiencies
     S1-1                                     X                          X             2
     S1-2           X                         X               X                        3
     S1-3           X                                                                  1
     S1-4           X                         X                                        2
     S1-5                                     X                                        1
     S1-6           X                                                                  1
     S1-7           X                                         X                        2
     S1-8           X                                         X                        2
     S1-9           X                         X               X                        3
     S1-10          X                                         X                        2
     S1-11          X                                                                  1
     S1-12          X                                         X                        2
     S1-13          X                                                                  1
     S1-14                                                                             0
     S1-15          X                                                                  1
     S1-16          X                                         X                        2
     S1-17          X                                         X                        2
     S1-18                                                    X                        1
     S1-19          X                                         X                        2
     S1-20          X                         X                          X             3
     S1-21          X                         X               X          X             4
     S1-22                                    X               X          X             3
     S1-23          X                                         X                        2

Supported Employment Services in New Jersey (A-02-12-01009)                                      17
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency    Deficiency   Deficiency     No. of
   Month            1            2            3             4            5        Deficiencies
   S1-24                                      X               X          X             3
   S1-25            X                         X               X          X             4
   S1-26            X                                                                  1
   S1-27            X                                         X                        2
   S1-28            X                                                                  1
   S1-29            X                                                                  1
   S1-30            X                                         X                        2
   S1-31            X                         X                          X             3
   S1-32            X                         X               X          X             4
   S1-33            X                         X                          X             3
   S1-34            X                                                                  1
   S1-35            X                         X               X                        3
   S1-36            X                                                    X             2
   S1-37            X                         X                          X             3
   S1-38                                      X                          X             2
   S1-39                                      X               X                        2
   S1-40            X                         X               X          X             4
   S1-41            X                         X                          X             3
   S1-42                                                                               0
   S1-43            X                                                                  1
   S1-44            X                                                                  1
   S1-45            X                                                                  1
   S1-46            X            X            X                          X             4
   S1-47            X                                                                  1
   S1-48            X                                         X                        2
   S1-49            X                         X                          X             3
   S1-50            X                         X               X          X             4
   S2-1             X                         X               X          X             4
   S2-2             X                                                                  1
   S2-3                          X            X                                        2
   S2-4                          X            X                                        2
   S2-5             X                                                    X             2
   S2-6             X                         X               X          X             4
   S2-7                          X            X                                        2


Supported Employment Services in New Jersey (A-02-12-01009)                                      18
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency    Deficiency   Deficiency     No. of
   Month            1            2            3             4            5        Deficiencies
   S2-8             X                         X                                        2
   S2-9             X                         X               X          X             4
   S2-10                         X            X                                        2
   S2-11            X                                                                  1
   S2-12                         X            X                                        2
   S2-13                         X                                       X             2
   S2-14            X                                                                  1
   S2-15                         X            X                          X             3
   S2-16            X            X                                                     2
   S2-17                         X            X                                        2
   S2-18            X                                                                  1
   S2-19                         X            X                                        2
   S2-20            X            X                            X                        3
   S2-21                         X            X                                        2
   S2-22                         X            X                          X             3
   S2-23                         X            X                          X             3
   S2-24            X            X                            X                        3
   S2-25                         X            X                                        2
   S2-26                         X            X                                        2
   S2-27            X                         X               X                        3
   S2-28                         X            X                                        2
   S2-29                                      X                          X             2
   S2-30                         X            X                          X             3
   S2-31            X                                         X                        2
   S2-32            X                                                                  1
   S2-33            X            X                            X                        3
   S2-34                         X            X                                        2
   S2-35                         X            X                                        2
   S2-36                         X            X                          X             3
   S2-37                         X            X                                        2
   S2-38            X                                                                  1
   S2-39                         X            X                                        2
   S2-40            X                                         X                        2
   S2-41            X                                                    X             2


Supported Employment Services in New Jersey (A-02-12-01009)                                      19
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency    Deficiency   Deficiency     No. of
   Month            1            2            3             4            5        Deficiencies
   S2-42            X                                                                  1
   S2-43            X                                                                  1
   S2-44            X                         X                                        2
   S2-45            X                                                                  1
   S2-46                         X            X                                        2
   S2-47            X                         X                                        2
   S2-48            X            X                                                     2
   S2-49                         X            X                                        2
   S2-50            X            X                            X                        3
   S3-1                          X            X                                        2
   S3-2             X            X                                                     2
   S3-3             X            X            X                                        3
   S3-4             X                                                                  1
   S3-5                          X            X                          X             3
   S3-6                          X                            X                        2
   S3-7             X            X                            X                        3
   S3-8             X            X                            X                        3
   S3-9                          X            X                                        2
   S3-10                         X            X                                        2
   S3-11            X            X                            X                        3
   S3-12                         X            X                          X             3
   S3-13                         X            X                                        2
   S3-14                         X            X                                        2
   S3-15                         X            X                                        2
   S3-16            X            X                            X                        3
   S3-17                         X            X                                        2
   S3-18            X            X                                                     2
   S3-19            X            X                                                     2
   S3-20            X            X                                                     2
   S3-21            X            X                                                     2
   S3-22            X            X                                                     2
   S3-23            X            X                                                     2
   S3-24            X            X                                                     2
   S3-25            X            X                                                     2


Supported Employment Services in New Jersey (A-02-12-01009)                                      20
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency    Deficiency   Deficiency     No. of
   Month            1            2            3             4            5        Deficiencies
   S3-26            X            X                                                     2
   S3-27            X            X                                                     2
   S3-28            X            X                                                     2
   S3-29            X            X                                                     2
   S3-30                         X                                                     1
   S3-31            X            X                                                     2
   S3-32            X                                                                  1
   S3-33            X            X                            X                        3
   S3-34            X            X                                                     2
   S3-35            X            X                                                     2
   S3-36            X            X                                                     2
   S3-37            X            X                                                     2
   S3-38                         X            X                                        2
   S3-39                         X            X                                        2
 Category
 Totals            93           67            64              39        31           294
 137 Beneficiary-Months in Error




Supported Employment Services in New Jersey (A-02-12-01009)                                      21
                          APPENDIX G: STATE AGENCY COMMENTS 





                                                   Jiitnte of ~efu lersey
    CHRIS CHRISTIE                             DEPARTMENT OF HUMAN SERVICES
       Governor                     DIVISION OF MEDICAL AsSISTANCE AND HEALTif SERVICES
    KIM GUADAGNO                                              PO Box 712                                            JENNIFER VELEZ
      Lt. Governor                                     TRENTON,  NJ 08625-0712                                       Commissioner
                                                                                                                    VALERIE JIARR
                                                        September 16, 2013                                             Director




            James P. Edert
            Regional Inspector Ge neral for Au dit Services
            Department of Health and Human Services
            Office of Inspector General
            Office of Audit Services Region II
            Jacob K. Javits Federal Building
            26 Federal Plaza - Room 3900
            New York, NY 10278

            Report Number: A-01-12-01 009

            Dea r Mr. Edert:

            This serves as a response to your letter dated July 17, 2013 concerni ng the Department of
            Health and Human Services, Office of the Inspector General's (OIG) draft report entitled "Most
            of New Jersey 's Claims for Medicaid Supported Employment were Unallowable." Your letter
            provides the opportunity to comment on this draft report.

            The objective of this review was to determine whether the Division of Medical Assistance and
            Healt h Services' (DMAHS) claim for Medicaid reimbursement for Supported Employment under
            the Community Care Waiver (CCW) program complied with certain Fed era l and State
            requirements. The Division of Developmental Disabilities (Division) administers the CCW
            program.

            The draft audit report concluded that most of New Jersey's claims for reimbursement for
            supported employment services did not fully comply with certain Federal and State
            requi rement s. Specifically, 2 of the 139 beneficiary-months in the random sample were properly
            cla imed for Medicaid reimbursement for all supported employment program services , the
            remaining 137 beneficiary-months were not allowable for Medicaid reimbursement. Based upon
            the sample results, the auditor estimated that New Jersey improperly claimed at least
            $7.074.969 in Federal Medicaid reimbursement for unallowa ble supported employment
            services claimed between January 1, 2008 and November 30, 2011.

            We appreciate the opportunity to provide this response to the draft OIG audit report. Following
            are the auditors' recommendations and the Divi sion of Medical A ssistance and Health Services
            responses:




                        New Jersey Is An Equal Opportwtily EMployer • Prinud 011 Recycled Paper tJIId RecycltJble




Supported Employment Services in New Jersey (A-02-12-01 009)                                                                         22
             James P. Edert
             September 16, 2013
             Page 2


             The OIG recommends that New Jersey refund $7,074,969 to the Federal Government.

             The State concurs with some but not all of the findings concerning claims fo r unallowable
             supported employment services . The State respectively requests that t he amount of the refund
             be recalculated based upon a review of the supporting documentation retrieved by Division staff
             subsequent to the OIG Exit Conference. The supporting information is included on the attached
             excel spreadsheet and hard copies of the documentation are available for rev iew.

             The OIG recommends that New Jersey complies with certain Federal and State
             requirements by requiring the Division and/or providers to do the following:

                    1. 	 Claim reimbursement only for documented supported employment services
                    2 . 	 Provide supported employment services only to beneficiaries for whom there is a
                        completed and approved care plan
                    3 . 	 Ensure and document that all beneficiaries approved for supported employment
                          services have been assessed and certified to need the required level of care; and
                    4 . 	 Ensure and document that all job coaches meet division qualifications.

             The Division is in the process of establishing new monitoring requirements for approved
             Supported Employment providers. Effective October 2014 quarterly visits to approved supported
             employment administrative sites wi ll be conducted by case management staff and/or support
             coordinators. Service Plans, including annual level of care re-determinations, and job coach
             documentation requirements will be reviewed at the quarterly visits. Additionally, the Division is
             establishing new requirements for supported employment reviews. One of these changes is
             moving from a single administrative review of personnel fi les every 5 years to a review be ing
             completed at each agency site review. Personnel file reviews will include ensuring that staff
             attend all required trainings and meet the educational and/or j ob experience requ irements.

             The Division is also estab lishing a fee-for-se rvice system which utilizes a service plan that
             clearly identifies which waiver services are being rendered and claimed . This change should
             ensure that agencies do not improperly bill for supported employment services when day
             habilitation is being provided.

             DMAHS is retaining an independent auditing firm that will audit CCW service providers' claims,
             including supportive employment services. These audits will begin within the next few months
             and should strengthen oversight of the CCW program .

             If you have any questions or require additional information , please contact me or Richard Hurd
             at 609-588-2600.

                                                          Sincerely,



                                                          Valerie Harr
                                                          Director
            VH:H
            c:   Jennifer Velez
                 Richard Hurd




Supported Employment Services in New J ersey (A-02-12 -01 009)                                                    23
